£

No:

IN THE
SUPREME COURT OF THE UNITED STATES
DELVA NEWHOUSE,
as Administratrix of the Estate of,
WILLIAM PERRY NEWHOUSE III,PETITIONER,
-VSETHICON INC, et al,
RESPONDENT,
/

STATE OF WEST VIRGINIA )

)ss.

COUNTY OF CLAY

CERTIFICATE/PROOF OF SERVICE

)

On
J 0?________ 2020, The undersigned served a copy of this Petitioner’s
Certificate of Compliance; Petitioner’s Petition For Writ of Certiorari; Petitioner’s
Appendix to the Petition For Writ of Certiorari; and Certificate/Proof of Service. Upon
Respondents ETHICON Corporate Attorneys- Phillip J. Combs, Natalie B. Atkinson,
from Thomas Combs, and Spann, PLLC, at 300 Summers St, Suite 1380, PO Box 3824,
Charleston, West Virginia, 25338-3824; and Respondents ETHICON Corporate Appeal
Attorneys- Susanna M. Moldoveanu, at Butler Snow LLP, 6075 Poplar Ave. Suite 500,
Memphis, TN 37201. By placing a copy of said documents in a sealed legal envelope,
properly addressed, with U.S. First Class Postage being completely prepaid in full and
depositing it in the U.S. Mail.
I/Plaintiff declares that the above statements are true to the best of my knowledge,
information, and belief. See 28 USC 1746 et seq.
Date:
XC: Respondents Attorneys
File

Respectfully Submitted,

PETITIONER IN PRO SE
DELVA NEWHOUSE
865 CARBIDjE
GLEN, WES
88
(304) 388-5045 jyjQy g Q 2020

FlSSSDflB

©FFICE op the clerk
SUPREME COURT. U.S.

